Case: 20-1359

l:19-cv-01248-MMM # 28-1
Document: 00713727561

Page 1 of 1

FileflioW89?acenft^2b WO-IsaE
Clerk, U.S. District Court, iLCD

United S
For the Seventh Circuit
Chicago, Illinois 60604
Submitted October 29, 2020
Decided November 13, 2020

CERTIFIED COPY

Before
FRANK H. EASTERBROOK, Circuit Judge
AMY J. ST. EVE, Circuit Judge

Court%fcneaIs
Seventh OiEculk,

No. 20-1359
CLYDE EDWARD BRADLEY,
Petitioner-Appellant,
v.
TERI KENNEDY,
Respondent-Appellee.

Appeal from the United States District
Court for the Central District of Illinois.
No. 19-V-1248
Michael M. Mihm,
Judge.
ORDER

Clyde Bradley has filed a notice of appeal from the denial of his 28 U.S.C. § 2254
petition, which we construe as a request for a certificate of appealability. We have
reviewed the final order of the district court and the record on appeal. We find no
substantial showing of the denial of a constitutional right. See 28 U.S.C. § 2253(c)(2).
Accordingly, we DENY the request for a certificate of appealability and DENY
Bradley's motion to proceed in forma pauperis.

Casey. Connie
From:
Sent:
To:
Subject:

ECF_Returns@ilcd.uscourts.gov
Thursday, January 16, 2020 1:46 PM
ECF_Notices@ilcd.uscourts.gov
[External] Activity in Case l:19-cv-01248-MMM Bradley v. Kennedy Order on Motion for
Extension of Time to File

This is an automatic e-mail message generated by the CM/ECF system. Please DO NOT RESPOND to this e-mail
because the mail box is unattended.
♦ ** NOTE TO PUBLIC ACCESS USERS*** Judicial Conference of the United States policy permits attorneys of record and
parties in a case (including pro se litigants) to receive one free electronic copy of all documents filed electronically, if
receipt is required by law or directed by the filer. PACER access fees apply to all other users. To avoid later charges,
download a copy of each document during this first viewing. However, if the referenced document is a transcript, the
free copy and 30 page limit do not apply.
U.S. District Court
CENTRAL DISTRICT OF ILLINOIS

Notice of Electronic Filing
The following transaction was entered on 1/16/2020 at 1:46 PM CST and filed on 1/16/2020
Bradley v. Kennedy
Case Name:
Case Number:
1:19-CV-01248-MMM
Filer:
Document Number: No document attached
Docket Text:

TEXT ORDER denying [10] Motion for Extension of Time and [12] Motion for Production of
Exhibits. On August 6, 2019, the Court entered an [2] Order that set out the deadline for
Petitioner to file any traverse or reply within twenty-one (21) days after service of
Respondent's response to Petitioner's habeas petition. Respondent filed his [6] Answer on
December 2, 2019, and certified that service was made on the same date on Petitioner.
Accordingly, Petitioner had up until December 23, 2019 to file a traverse or reply. Petitioner
did not file any reply. Petitioner claims this is due to not having counsel and he did not find
another inmate more knowledgeable in the law to assist him until December 26, 2019. At that
time, the inmate advised Petitioner that he should file a motion requesting extension of time.
Subsequently, Petitioner waited three weeks to file his motion and has provided no reason for
such a delay in filing. The Court also notes that Petitioner has demonstrated sufficient
competency to proceed in this case as he filed his [1] Petition pro se. See Text Order
12/20/2019. Accordingly, the Court finds Petitioner has not demonstrated good cause for an
extension and DENIES his [10] Motion for Extension of Time. Petitioner also requests
production of the exhibits filed in support of Respondent's Answer. On December 2, 2019,
Respondent certified that copies were mailed to Petitioner (ECF No. 7 at 3), and on January 16,
2019, Respondent filed a [13] Response advising the Court that Respondent again sent
Petitioner a complete copy of the exhibits on January 16, 2019. Accordingly, the Court DENIES
Petitioner's [12] Motion for Production of Exhibits as MOOT. Entered by Judge Michael M.
Mihm on 1/16/2020.(NRL, ilcd)
i

I

l:19-cv-01248-MMM Notice has been electronically mailed to:
Michael L Cebula MCebula@atg.state.il.us, EDusza@atg.state.il.us, jescobar@atg.state.il.us, TWhatleyConner@atg.state.il.us
l:19-cv-01248-MMM Notice has been delivered by other means to:
Clyde Edward Bradley
A70453
PONTIAC
CORRECTIONAL CENTER
Inmate Mail/Parcels
PO Box 99
Pontiac, IL 61764

2

1:19-CV-01248- M M M # 16

Page 1 of 22

E-FILED
Friday, 07 February, 2020 11:16:08 AM
Clerk, U.S. District Court, ILCD

UNITED STATES DISTRICT COURT
CENTRAL DISTRICT OF ILLINOIS
PEORIA DIVISION
CLYDE EDWARD BRADLEY,

)
)
)
)
)
)
)
)
)

Petitioner,
v.
TERI KENNEDY,
Respondent.

Case No. 19-1248

ORDER AND OPINION
Before the Court are Petitioner Clyde Edward Bradley’s (“Petitioner”) Petition for Writ of
Habeas Corpus under 28 U.S.C. § 2254 (ECF No. 1) and Respondent Teri Kennedy’s
(“Respondent”) Answer to the Petition (ECF No. 6). For the reasons set forth below, Petitioner’s
§ 2254 Petition is DENIED.
PROCEDURAL HISTORY
Petitioner is currently in the custody of the Illinois Department of Corrections and housed
at Pontiac Correctional Center. In 2006, he was charged with two counts of heinous battery and
four counts of aggravated domestic battery against his wife, Talefia Parker (“Parker”), for events
that occurred between June 25, 2006, and July 26,2006. (ECF No. 7-2 at 2). On February 7, 2008,
the jury convicted Petitioner while also finding that his crimes were accompanied by brutal or
heinous behavior indicative of wanton cruelty. (ECF No. 1 at 1; ECF No. 7-10 at 55). On March
14,2008, Petitioner was sentenced to forty-five years in prison for heinous battery and was ordered
to serve 85% of that term. (ECF No. 7-10 at 124-125). Additionally, Petitioner was sentenced to a
consecutive term of fourteen years for aggravated battery. Id. at 125. The trial court found

1

l:19-cv-01248-MMM #16 Page 2 of 22

consecutive sentences were necessary in order to protect the public from further criminal conduct.
Id.
On May 29, 2009 Petitioner’s direct appeal was filed. Petitioner argued that the trial court
erred by (1) failing to allow all of the jurors to state whether they understood and accepted four
principles of law as required by Illinois Supreme Court Rule 431(b); (2) barring evidence that
Parker had withdrawn money from his bank account after he was arrested; (3) barring evidence
that Parker had allegedly previously made false claims regarding two coworkers sexually
assaulting her; (4) abusing its discretion by ordering Petitioner to serve his forty-five year sentence
for heinous battery consecutively with his fourteen year sentence for aggravated domestic battery;
(5) communicating ex parte when it responded to the jury’s note; and (6) denying Petitioner
effective assistance of counsel when his attorney failed to object to hearsay testimony. (ECF No.
7-1 at 24-66). On June 24, 2010, the Illinois Appellate Court rejected Petitioner’s arguments and
affirmed his convictions and sentences. (ECF No. 1 at 2; ECF No. 7-1 at 1-23). Subsequently,
Petitioner filed a petition for leave to appeal to the Illinois Supreme Court, which it denied on
January 26, 2011. (ECF No. 1 at 3).
On June 9, 2011, Petitioner filed a postconviction petition. Id. The state moved to dismiss
the petition. (ECF No. 7-3 at 4). Following a hearing on the matter, the trial court granted the
state’s motion to dismiss. Id. at 5. Petitioner timely appealed and argued that the court erred when
it dismissed Petitioner’s postconviction petition because direct appeal counsel was ineffective for
failing to raise Parker’s alleged false accusations of sexual assault and for failing to challenge the
submission of a fake gun to the jury. Id. He also argued that trial counsel was ineffective for failing
to call certain witnesses and to provide an offer of proof regarding their potential testimony in
support of the defense’s theory of the case. Id. The appellate court affirmed the judgment

2

l:19-cv-01248-MMM # 16 Page 3 of 22

dismissing Petitioner’s postconviction petition. Id. at 7. Following the order, Petitioner filed a
petition for leave to appeal, which the Illinois Supreme Court denied on January 31, 2019. (ECF
No. 7-4 at 27-50).
On July 22, 2019, Petitioner filed the instant Petition before this Court seeking relief under
28 U.S.C. § 2254. (ECF No. 1). Petitioner asserts four grounds for relief: (1) on direct appeal, the
appellate court erred in finding the trial court’s error harmless when it engaged in ex parte
communications with the jury during their deliberations; (2) on direct appeal, the appellate court
unreasonably concluded that the trial court did not err in preventing Petitioner from crossexamining Parker about allegedly stealing money from Petitioner; (3) direct appeal counsel was
ineffective because he failed to argue the trial court’s error in barring certain witnesses to testify
regarding Parker’s alleged previous false accusations under the same theory that Parker wanted to
frame Petitioner to satisfy a drug debt; and (4) in its postconviction ruling, the appellate court erred
when it found trial counsel was not ineffective for failing to call certain witnesses to testify about
discussions held with Parker after Petitioner’s arrest, as well as Parker’s alleged adultery, drug use,
and prior false accusations of sexual assault. Id. This Opinion follows.
BACKGROUND
In February 2005, Petitioner and Parker got married.1 At trial, Petitioner testified to the
following set of details. Sometime after they were married, Parker developed a drug problem. He
stated that in late 2005, Parker asked Petitioner for $5000.00 to pay a drug debt, and he insisted
that he pay the debt in person, but Parker refused. Around the same time, Petitioner saw bums on
Parker’s chest and right hand. Petitioner testified that he did not cause either injury. On April 21,

1 Most of the information for the background section has been taken from the Illinois Third District Appellate
Court’s September 26, 2018 Order. People v. Bradley, 2018 IL App (3d) 150301 -U, appeal denied, 116 N.E.3d 921
(Ill. 2019); (ECF No. 7-3 at 2- 7).

3

l:19~cv-01248-MMM #16

Page 4 of 22

2006, Parker came home in the middle of the night bleeding from a leg wound, head trauma, and
bums to her chest and thigh. Petitioner again testified he did not cause those injuries. He drove her
to the hospital, and on the drive there, Parker told him she had been with a group of women earlier
in the evening. Petitioner testified that Parker told hospital staff and police officers that her injuries
were caused by a gang fight. According to Petitioner, his marriage began breaking down after this
incident. By late June or early July 2006, Petitioner talked to Parker about ending their marriage.
In late July 2006, Parker picked him up after work and drove him home. He testified that after
dinner, Parker told him she was going out to pay off her drug debt. Petitioner stated that Parker
returned after midnight and was bleeding profusely from her face and her clothes were bloody. He
offered to take Parker to the hospital, but she refused. Petitioner also noticed there was blood
splatter in the apartment. The next day, he put her bloody clothes in a garbage bag and placed the
bag in his car trunk. He also noticed a large amount of blood inside the car and subsequently took
the car to be cleaned. When he arrived back home, Parker was not there. At approximately 10:00
PM, police arrived, and Petitioner was arrested after consenting to a search of the apartment.
Parker also testified at trial. She stated that prior to their marriage, Petitioner had slapped
her one time. By the end of 2005, their marriage began to change. Petitioner started accusing her
of cheating on him and began harming her. On April 21, 2006, Parker stated that she went to the
hospital due to injuries Petitioner inflicted. Petitioner had accused her of cheating and tried to cut
her eye out. According to Parker, Petitioner also tied her legs together, tried to slice off her clitoris,
stabbed her in the leg, and stomped on her. Parker stated that on the way to the hospital, Petitioner
told her to say that she had been injured in a gang fight when asked about her injuries. She later
told a detective that she did not want to pursue the gang fight case. In early July 2006, Parker stated
that Petitioner accused her of cheating on him again. She testified that as a result, Petitioner burned

4

l:19-cv-01248-MMM # 16 Page 5 of 22

her with boiling water, taped her to a chair, and poured the water down her pants and into her
mouth. On or about July 25, 2006, Parker picked up Petitioner from work and he was angry at her.
Parker stated that Petitioner drove her to an abandoned house in the country, where he picked up
a large stick and put it in the trunk. He then took her to a cornfield, called someone about dogs,
and told her he was going to lock her in the trunk with the dogs. Petitioner proceeded to hit her
with the stick and threw her against the car. Parker stated that when they were driving back,
Petitioner hit her again. The couple then arrived at their apartment building where Parker testified
that they sat arguing in the parking lot and Petitioner stabbed her in the face with a pen several
times. Petitioner continued beating her when they arrived inside the apartment with decorative
acorns and hit her in the face with his fists. According to Parker, he ordered her to clean up the
blood in the bathroom and hit her with a shaving cream can while she was cleaning. Petitioner also
struck her in the face with her ice pack. Parker denied leaving to go purchase crack cocaine that
day. The following morning, Petitioner told her he was going to sell his car and left for work. Later
that night, Petitioner slashed her face with a knife or scissors. On or about July 27, 2006, after
Petitioner left for work, Parker called her aunt and went to the hospital. She told the medical staff
and police about what Petitioner did to her.
At trial, an emergency room nurse who treated Parker testified that Parker had numerous
bums and other injuries that Parker said her husband had caused. Police testified to discovering
the following while searching the couple’s apartment: blood spatters on the wall in the master
bedroom, kitchen, and living room; blood on the master bedroom’s comforter, sheets, and pillows;
blood spatters on a poster; blood inside a wooden fruit bowl; blood on a pair of scissors; a piece
of gauze with blood on it; sticky residue on a chair which appeared to be from tape; and a blank

5

l:19-cv-01248-MMM # 16

Page 6 of 22

gun.2 (ECF No. 7-8 at 28-30, 57-58, 125). Police also searched Petitioner’s car and found the
following: a bag of bloody clothing inside the trunk; a wooden stick; blood on the roof of the
vehicle and on the seat; and several pens. Id. at 34, 128-129. At trial, the parties stipulated that
Parker’s blood was found inside the car and on the items recovered from the apartment. (ECF No.
7-3 at 2).
During deliberations, the jury sent the trial judge a note asking: “[i]s it appropriate for the
defendants [sic] brother to have been in the court room during jury selection? A couple of the
ladies were upset that he may have gathered personal information on them for future retaliation.”
(ECF No. 7-1 at 9). The judge replied ex parte by stating “[i]t is appropriate because it is a public
courtroom. However, your concerns may be alleviated if I visit with you after the case is
concluded.” Id.
The jury ultimately found Petitioner guilty of heinous batter and aggravated domestic
battery accompanied by brutal or heinous behavior indicative of wanton cruelty.
LEGAL STANDARD
Section 2254 provides for a federal writ of habeas corpus for a person in state custody when
the individual is being held in violation of the Constitution, laws, or treaties of the United States.
28 U.S.C. § 2254(a). This Court's review of state court decisions is limited by the Antiterrorism
and Effective Death Penalty Act (“AEDPA”). § 2254. If a state court adjudicated a claim on the
merits, this Court can grant relief only if the state court adjudication resulted in (1) “a decision that
was contrary to, or involved an unreasonable application of, clearly established Federal law, as
determined by the Supreme Court of the United States”; or (2) “a decision that was based on an
unreasonable determination of the facts in light of the evidence presented in the State court

2 Petitioner testified this was a fake gun as part of his security job, but police characterized it as a blank gun in the
record. (ECF No. 7-8 at 135; ECF No. 7-9 at 108-109).

6

l:19-cv-01248-MMM # 16 Page 7 of 22

proceedings.” § 2254(d)(1), (d)(2). A state court decision involves an unreasonable application of
clearly established law if the state court identifies the proper rule and unreasonably applies it to
the facts, or if the state court unreasonably extends, or refuses to extend, a rule of law. Williams v.
Bartow, 481 F.3d 492, 498 (7th Cir. 2007). In a writ of habeas corpus under § 2254 “ a
determination of a factual issue made by a State court shall be presumed to be correct. The
applicant shall have the burden of rebutting the presumption of correctness by clear and convincing
evidence.” 28 U.S.C. § 2254(e)(1). The federal habeas court reviews the decision of the last state
court to rule on the merits of the petitioner’s claim. Coleman v. Hardy, 690 F.3d811,814 (7th Cir.
2012). Under Illinois law, all issues decided on direct appeal are res judicata. People v.
Montgomery, 763 N.E.2d 369, 372 (Ill. App. Ct. 2001). Therefore, issues that are res judicata from
the state direct appeal decision are not waived if they are not brought forth via a state
postconviction petition as a court would not hear them. See id; see also People v. Bradley, 2018
Ill. App. 3d 150301-U, T[ 31, appeal denied, 116 N.E.3d 921 (Ill. 2019) (holding that this
Petitioner’s issues that were decided on direct appeal would not be addressed by the appellate court
in his postconviction petition).
ANALYSIS
I. Ex Parte Jury Communications
Petitioner claims his Sixth Amendment and Due Process rights were violated because while
he was absent, the trial judge responded to a jury note. Respondent argues that the ex parte
communication was not factually or legally incorrect, and therefore, it was not prejudicial and did
not affect the outcome of the case.
Ex parte communications between a judge and jury are improper. United States v. U.S.
Gypsum Co., 438 U.S. 422, 460-62 (1978) (finding ex parte meeting or communication between

7

l:19-cv-01248-MMM #16 Page 8 of 22

judge and jury foreman “pregnant with possibilities for error”). A defendant has a Sixth
Amendment right to be present in the courtroom at every stage of the trial. Illinois v. Allen, 397
U.S. 337, 338 (1970); Ellsworth v. Levenhagen, 248 F.3d 634, 639 (7th Cir. 2001).
However, the “mere occurrence of an ex parte conversation between a trial judge and a
juror does not constitute a deprivation of any constitutional right,” nor does a defendant have “a
constitutional right to be present at every interaction between a judge and a juror” or “to have a
court reporter transcribe every such communication.” United States v. Gagnon, 470 U.S. 522, 526
(1985); see also Ellsworth, 248 F.3d at 640 (“But the constitutional right to presence is not
implicated per se by a judge’s ex parte communication with the jury during deliberations.”).
Rather, a defendant has “a due process right to be present at a proceeding ‘whenever his presence
has a relation, reasonably substantial, to the fullness of his opportunity to defend against the
charge,’ ” but only “ ‘to the extent that a fair and just hearing would be thwarted by his absence.’”
Gagnon, 470 U.S. at 526 (quoting Snyder v. Com. of Mass., 291 U.S. 97, 108 (1934) (overruled
on other grounds)). “Thus, a defendant is guaranteed the right to be present at any stage of the
criminal proceeding that is critical to its outcome if his presence would contribute to the fairness
of the procedure.” Kentucky v. Stincer, 482 U.S. 730, 745 (1987).
The appellate court’s analysis of Petitioner’s ex parte communication claim was consistent
with Supreme Court decisions and was not objectively unreasonable. On direct appeal, the court
correctly determined there was an improper ex parte communication. (ECF No. 7-1 at 20-22). The
appellate court’s determination was based on Illinois law and consistent with Supreme Court
precedent. See People v. Childs, 636 N.E.2d 534,538 (Ill. 1994) (affirming appellate court decision
to reverse conviction because of ex parte jury communication). The burden was then placed on the
state to show harmless error beyond a reasonable doubt. See Chapman v. California, 386 U.S. 18,

8

l:19-cv-01248-MMM # 16 Page 9 of 22

24 (1967). The appellate court found the trial court’s error was harmless beyond a reasonable
doubt. (ECF No. 7-1 at 22). In reaching this conclusion, the appellate court noted that the jury note
in question involved jurors fearing retaliation because Petitioner’s brother was present in the
courtroom during jury selection, and opined that Illinois case law indicates that fear of retaliation
tends to make jurors vote for acquittal rather than for conviction. Id. at 21. According to the court,
“any impartiality of the jurors in question should have worked in the defendant’s favor rather than
against him.” Id. The court further opined that no rational jury would have found Petitioner not
guilty absent this error.
The Court finds that Petitioner has failed to show that the appellate court erred in its
analysis or acted unreasonably. Since the ex parte communication did not involve a fact in
controversy or law applicable to the case, the communication was not prejudicial. See Rushen v.
Spain, 464 U.S. 114,121 (1983) (holding that ex parte communication between a judge and ajuror
was innocuous because “[t]hey did not discuss any fact in controversy or any law applicable to the
case. The judge simply assured [the juror] that there was no cause for concern.”). Accordingly,
this argument for relief is denied.
II. Witnesses Testimony Regarding Withdrawals from Petitioner’s Bank Account
Petitioner argues that the appellate court incorrectly concluded the trial court did not err in
preventing him from cross-examining Parker about allegedly “stealing money” from him, and
calling Jerel Newbill (“Newbill”) to testify about Parker and Newbill “stealing” his money. (ECF
No. 1-1 at 22). According to Petitioner, there was evidence that in September 2006, after he was
arrested, Parker gave Newbill his ATM card and identification number to withdraw $2500.00 from
Petitioner’s bank account. The defense wanted to present this evidence at trial to advance the
theory that Parker was framing Petitioner in the underlying criminal case in order to gain access

9

l:19-cv-01248-MMM #16 Page 10 of 22

to his assets to fund her drug habits. Before trial, the prosecution filed a motion to preclude the
defense from questioning Parker about this allegation and the trial court granted the motion.
Respondent argues that Petitioner’s claim has been procedurally defaulted because he did not raise
this issue through one complete round of the state’s appellate review since he left it out of his
postconviction leave for appeal. Further, even if he did preserve the claim, Respondent argues it
is without merit because the appellate court’s adjudication was not contrary to, or an unreasonable
application of Supreme Court precedent, and the trial court’s ruling did not deny Petitioner an
opportunity to present his defense.
Typically, a habeas petitioner must fully and fairly present his federal claims through one
full round of state court review before he files his federal habeas petition. O ’Sullivan v. Boerckel,
526 U.S. 838, 845, 848 (1999); Mulero v. Thompson, 668 F.3d 529, 536 (7th Cir. 2012). However,
the Court does not find that Petitioner defaulted on this argument here because the issue was
decided on direct appeal, and Illinois law dictates that issues decided on direct appeal are res
judicata and do not need to be addressed postconviction. See Montgomery, 763 N.E.2d at 372.
Therefore, Petitioner raised the issue as far as he could take it. Accordingly, the Court will address
whether Petitioner is entitled to habeas relief on this issue.
The admissibility of evidence is generally a matter of state law. Milone v. Camp, 22 F.3d
693, 702 (7th Cir. 1994) (citation omitted). Accordingly, absent a showing that the refusal to admit
evidence violated a specific constitutional guarantee, a federal court can only issue a writ of habeas
corpus on the basis of a state court evidentiary ruling when that ruling violated the petitioner’s
right to due process by denying him a fundamentally fair trial. Id.
On direct appeal, the appellate court held the proposed evidence related to the withdrawals
from Petitioner’s bank account occurred after Petitioner’s arrest, rather than before, and was

10

l:19-cv-01248-MMM # 16 Page 11 of 22

ultimately too remote and uncertain to be admissible. (ECF No. 7-1 at 17). In this Petition,
Petitioner offers no evidence to demonstrate that the proposed testimony that the trial court
excluded was not too remote to be relevant. Petitioner was arrested in July 2006 and the alleged
withdrawal did not occur until September 2006. In fact, according to defense counsel at trial, no
bank records existed to establish the withdrawal. (ECF No. 7-8 at 176). The only physical evidence
included a purported letter from the bank indicating there was an investigation into the potentially
fraudulent nature of the withdrawal. Id. at 177. The outcome of the investigation was not presented.
Notwithstanding these facts, Petitioner was still afforded the ability to present his defense
at trial when he cross-examined Parker about being beaten by gang members and her alleged
$5000.00 drug debt. (ECF No. 7-9 at 24, 25, 49). Petitioner also testified that Parker purportedly
had a drug problem, asked him for money to pay her drug debts, including the $5000.00 debt, and
that he did not abuse her. Id. at 137-139. Even though Petitioner could not present evidence of
Parker withdrawing money from his account after he was arrested, Petitioner was able to present
evidence in the form of testimony to support his theory that Parker had an alleged drug problem
and motivation to frame him for her injuries to pay her debts.
The Court finds that resolution of this issue by the appellate court is not contrary to clearly
established federal law and finds no deprivation of Petitioner’s constitutional rights in the trial
court’s refusal to admit evidence of Parker’s alleged bank withdrawal. Accordingly, this ground
for relief is denied.
III. Ineffectiveness of Direct Appeal Counsel
In his third claim, Petitioner contends that direct appeal counsel performed ineffectively
by failing to argue that the trial court denied a full defense when the court barred witnesses from
testifying about Parker’s alleged false accusations of sexual assault. Petitioner states that direct

11

l:19-cv-01248-MMM # 16 Page 12 of 22

appeal counsel should have included this argument when he asserted that allowing evidence of the
prior false accusations would have advanced the defense’s theory that Parker wanted to frame
Petitioner to satisfy a drug debt. Petitioner states that instead of using that argument, direct appeal
counsel asserted that these alleged accusations were admissible because a line of cases found such
false accusations to be admissible in sexual assault cases as an exception to the Rape Shield Statute.
These allegedly false accusations would have been evidenced by the testimony of Parker’s
previous co-workers, Brian Tranchitella (“Tranchitella”) and Jo Lynn White (“White”).
Respondent argues that the record contradicts Petitioner’s third claim, because direct appeal
counsel argued that testimony regarding Parker’s alleged false accusations of sexual assault
prevented his due process right to present a full defense.
In his postconviction brief, Petitioner raised the same argument and stated that he made a
substantial showing that direct appeal counsel was ineffective for failing to raise the denied
admission of Parker’s false accusations of sexual assault against her coworkers. (ECF No. 7-3 at
5). On review, the appellate court found that while Petitioner argued that he was presenting a
different theory regarding Parker’s false allegations, the issue was already decided on direct
appeal. Id. On direct appeal, the appellate court found the trial court properly barred the evidence
as prior bad acts. (ECF No. 7-1 at 15). Thus, the appellate court opined, “[r]egardless of what
theory [Petitioner] wants to support with evidence of Parker’s false allegations ... [i]ssues decided
on direct appeal are res judicata in a postconviction petition.” (ECF No. 7-3 at 5).
The Supreme Court has established a two-part inquiry for determining whether a defendant
received ineffective assistance of counsel. See Strickland v. Washington, 466 U.S. 668 (1984). The
Court must consider whether counsel’s performance deficient, and if so, was it prejudicial to the
defendant. Id. at 687. The Court does not find that direct appeal counsel’s performance was

12

l:19-cv-01248-MMM # 16 Page 13 of 22

deficient. In Petitioner’s direct appeal brief, counsel argued that the exclusion of evidence
regarding Parker’s prior false accusations was prejudicial in the same way as the exclusion of
evidence regarding her alleged theft of Petitioner’s money from his bank account. (ECF No. 7-1
at 55). As noted above, trial counsel wanted to use evidence of Parker “stealing” to advance the
theory that Parker was framing Petitioner in order to gain access to his assets to fund her drug
habits. Direct appeal counsel noted that Parker’s alleged false accusations were intended to be used
under “[Petitioner’s] claim[] that [Parker] was framing him.” Id. Accordingly, direct appeal
counsel did argue that evidence of Parker’s prior accusations would have advanced the defense’s
theory that Parker was attempting to frame Petitioner. Even if direct counsel used cases that related
the Rape Shield Statute, this was not prejudicial to Petitioner. On direct appeal, the court found
that Parker’s alleged prior bad acts were inadmissible, and Parker could not be impeached because
there were no criminal convictions to substantiate the accusations. Id. at 15. This is proper under
Illinois law. See People v. Franklin, 656 N.E.2d 750, 759 (Ill. 1995). Additionally, the record did
not reflect that Parker admitted that her claims were false. (ECF No. 7-1 at 16). There is no
reasonable probability that but for direct counsel’s presentation of arguments, the direct appeal
would have had a different result. See Strickland, 466 U.S. at 694.
Consequently, the appellate court’s finding on postconviction review that Petitioner’s
counsel’s “failure” was not ineffective assistance because the issue had no merit and was res
judicata was not an unreasonable application of federal law entitling Petitioner to habeas relief.
See Ouska v. Cahill-Masching, 246 F.3d 1036, 1053-54 (7th Cir. 2001) (finding state appellate
court’s decision that it was not ineffective assistance for defense counsel to fail to raise an
argument that would not have changed the outcome at trial was not an unreasonable application of
Strickland requiring habeas relief under § 2254). Therefore, this ground for relief is denied.

13

l:19-cv-01248-MMM # 16 Page 14 of 22

IV. The Reasonableness of the Illinois Appellate Court’s Determination When it
Concluded that Trial Counsel Performed Effectively
Petitioner challenges whether the state appellate court was reasonable in finding that trial
counsel did not perform deficiently when he failed to call certain witnesses and Petitioner was not
prejudiced from any alleged deficiency. He contends that there are four areas where the appellate
court “got the facts wrong.” (ECF No. 1-1 at 39). The four situations where Petitioner claims the
court misunderstood the facts include: (1) his daughter, Teirria Chalk’s, proposed testimony; (2)
barring evidence of Parker’s sexual activity; (3) evidence regarding Parker’s drug use; and (4)
failure to proffer certain witnesses’ testimony. Respondent states that Petitioner has not shown
that the appellate court’s determination was against clear and convincing evidence or that he has a
meritorious constitutional claim.
Under the AEDPA, a writ of habeas corpus on behalf of a person in custody pursuant to a
state court judgment shall not be granted with respect to any claim that was adjudicated on the
merits unless the adjudication of the claim (1) resulted in a decision that was contrary to, or
involved an unreasonable application of, clearly established federal law, as determined by the
Supreme Court, or (2) resulted in a decision that was based on an unreasonable determination of
the facts in the light of the evidence presented in the state court proceeding. 28 U.S.C. § 2254(d).
A state court decision is clearly contrary to established law if the state court applied a rule that
contradicted the governing law as set forth in Supreme Court cases, or if, being confronted with a
set of facts materially indistinguishable from those examined by Supreme Court precedent, the
state court arrived at an opposite result. Williams v. Bartow, 481 F.3d 492, 498 (7th Cir. 2007).
Additionally, a state court decision involves an unreasonable application of clearly established law
if the state court identifies the proper rule and unreasonably applies it to the facts, or if the state
court unreasonably extends, or refuses to extend, a rule of law. Id. To find whether Supreme Court
14

l:19-cv-01248-MMM # 16 Page 15 of 22

precedent has been unreasonably applied, the question is not whether the state court’s application
was “clearly erroneous”, but rather whether the decision was “objectively unreasonable.” Id.
In a proceeding instituted by an application for a writ of habeas corpus by a person
in custody pursuant to the judgment of a State court, a determination of a factual
issue made by a State court shall be presumed to be correct. The applicant shall
have the burden of rebutting the presumption of correctness by clear and convincing
evidence.
28 U.S.C. § 2254(e)(1).
To claim ineffective assistance of counsel, a petitioner must show that (1) counsel’s
performance fell below an objective standard of reasonableness; and (2) but for counsel’s alleged
errors and omissions, there is a reasonable probability that the outcome of the trial would have
been different. Strickland, 466 U.S. at 687; Lee v. Davis, 328 F.3d 896, 900 (7th Cir. 2003). The
burden is even higher for habeas review of a state court decision, as “[ujnder AEDPA establishing
that a state court’s application of the Strickland standard was ‘unreasonable’ is a tall task, and
‘only clear error in applying Strickland will support a writ of habeas corpus.’” McAfee v. Thurmer,
589 F.3d 353, 356 (7th Cir. 2009) (internal quotation omitted). The habeas petitioner must
overcome the strong presumption that counsel’s conduct was reasonable and that the challenged
action might be considered sound trial strategy, as strategic choices are “virtually
unchallengeable.” Id. at 356. Courts “presume that trial counsel’s decision not to call a witness
was strategic.” Weaver v. Nicholson, 892 F.3d 878, 885 (7th Cir. 2018).
A. Teirria Chalk’s Proposed Testimony
Petitioner states that the appellate court correctly noted that Teirria Chalk (“Chalk”) was
interviewed by an investigator and would testify that Parker requested $2500.00 - $5000.00 and
Petitioner’s car from her. However, Petitioner claims that the appellate court incorrectly claimed
that “none of the witnesses testified any of Parker’s conduct involved requests for money,” as

15

l:19-cv-01248-MMM # 16 Page 16 of 22

Chalk’s allegations clearly involved Parker asking for thousands of dollars and Petitioner’s car for
an exchange to dismiss the charges or “fix” them. (ECF No. 7-3 at 4, 6). Respondent argues that
Petitioner has analyzed the appellate court’s opinion out of context, because that court was
discussing a different group of witnesses - White, Tranchitella, Newbill, Michael Linwood
(“Linwood”), and Wesley Johnson (“Johnson”) - when it stated that none of them would testify
regarding requests for money. According to Respondent, the appellate court was opining that the
intended witnesses would have testified regarding Parker’s alleged false accusations and sexual
conduct in relation to her drug use and debt - none of which involved requests for money.
While the appellate court did not employ Strickland in its analysis, this Court does not find
its ruling to be contrary to, or an unreasonable application of, clearly established federal law. See
Early v. Packer, 537 U.S. 3, 8 (2002) (holding that citation of Strickland is unnecessary, “so long
as neither the reasoning nor the result of the state-court decision contradicts” Supreme Court
precedent.) The appellate court made a reasonable determination that trial counsel was not
ineffective, but rather his decision to not call several witnesses was sound trial strategy.
Respondent is correct that Petitioner incorrectly attributed the appellate court’s opinion
about testimony involving requests for money to Chalk, when the opinion that “none of the
witnesses testified any of Parker’s conduct involved requests for money” was clearly referring to
the other witnesses. Id. at 6. In its opinion, the appellate court stated that “several witnesses would
have testified regarding Parker’s alleged sexual conduct, particularly in regard to her drug use and
debt. . . the testimony would have challenged Parker’s credibility and impeached her testimony
by establishing Parker was an addict with drug debts who was unfaithful to [Petitioner].” Id. This
explanation was not meant for Chalk’s proposed testimony as she was not going to testify about
Parker being a drug addict or her sexual conduct.

16

l:19-cv-01248-MMM # 16 Page 17 of 22

It appears that the appellate court did not specifically reference Chalk’s proposed testimony
in its analysis. Regardless, it was implicit that she was included in the overall conclusion of the
court. The appellate court opined that “[t]rial counsel was aware of the witnesses and their potential
testimony and reasonably determined that the witnesses would not assist the defense. None of the
witnesses offered any information that Parker was injured by someone other than [Petitioner].” Id.
at 6-7. This is true of Chalk as her testimony did not provide an alternate theory of how Parker
sustained her injuries.
Petitioner asserts that Chalk’s testimony would have suggested that Parker had some
financial motive to frame Petitioner, but the Court finds that the testimony could have been
damaging to Petitioner. According to the investigator’s notes, it was Chalk who asked Parker
“[w]hat can we do to fix this?” (ECF No. 7-4 at 56). When money was brought up, Parker
purportedly questioned if the “money [was] for me because he loves me and it will let me start my
new life or for me not to testify?” Id. This testimony could have suggested that Petitioner’s
daughter was attempting to influence Parker’s testimony, rather than Parker having financial
motive to frame Petitioner. Therefore, the appellate court was reasonable in finding that trial
counsel’s decision not to call Chalk was sound trial strategy, and Petitioner was not prejudiced
when Chalk did not testify.
Here, Petitioner has failed to meet his burden of demonstrating that the state appellate
court’s decision was contrary to, or involved an unreasonable application of, clearly established
federal law or was based on an unreasonable determination of the facts. Therefore, his claim on
this ground is denied.

17

l:19-cv-01248-MMM # 16 Page 18 of 22

B. Barring Evidence ofParker’s Sexual Activity
Petitioner claims that the appellate court was incorrect when it stated that “testimony
regarding Parker’s sexual activity during the marriage was barred.” (ECF No. 7-3 at 6). Instead,
Petitioner argues that the trial court did not issue a blanket ruling barring any inquiry into Parker’s
sexual activity, only that the defense was barred from calling Tranchitella and White about
Parker’s false allegations of sexual assault and whether Parker exchanged sex for cocaine.
According to Petitioner, this is evidenced by Valencia McClain’s (“McClain”) testimony where
she stated Parker was seeing someone. McClain was the couple’s friend. Therefore, Petitioner
asserts trial counsel should have called Michael Linwood (“Linwood”) to testify that he personally
witnessed Parker committing adultery during her marriage with Petitioner. Respondent argues that
Petitioner is incorrect because the trial court specifically ruled that the defense could not elicit
testimony about Parker’s sexual conduct before or after his arrest and McClain’s testimony was
not about Parker’s sexual conduct.
The Court finds that the appellate court properly determined that a witness such as Linwood
could not have testified. According to the record, the trial court distinctly barred any testimony
regarding Parker’s sexual activity before or after Petitioner’s arrest. (ECF No. 7-8 at 172).
Additionally, McClain’s testimony related to Parker’s social life, not her sexual activity. (ECF No.
7-9 at 84-87). At one point, McClain testified that in 2005, Parker confided in her that she was
seeing a man in Bloomington, but was going to end the relationship because she was married to
Petitioner. Id. at 85. Overall, McClain did not make mention of Parker’s sexual conduct. Id. at 8487. This is most likely due to the ruling in effect barring testimony regarding Parker’s sexual
activity. Even if the court had allowed Linwood to testify, it would not have benefited Petitioner

18

l:19-cv-01248-MMM # 16 Page 19 of 22

as it would have supported the prosecution’s theory that Petitioner abused Parker because he
believed she was cheating on him.
Accordingly, Petitioner has failed to demonstrate that the appellate court made an
unreasonable determination of the facts and he was not prejudiced by trial counsel’s strategy to
not have Linwood testify. Petitioner’s claim on this ground is denied.
C. Barring Evidence ofParker’s Drug Use
Petitioner claims that the appellate court misapprehended the importance of Newbill’s,
Linwood’s, and Johnson’s proposed testimony about Parker’s alleged drug use around the time of
the offense and at trial. According to Petitioner, their testimony was admissible to impeach Parker
when she denied that she was a drug user. Respondent states that the appellate court did understand
how important the testimony of these proposed witnesses could be as it observed they may have
had knowledge about Parker’s alleged drug use, and the court noted that testimony of a witness
who used drugs “reflects on the witness’s credibility and recall ability.” (ECF No. 7-3 at 6). Even
so, the court concluded that trial counsel’s decision was attributable to trial strategy and not
ineffective assistance, and Respondent agrees with such a determination. Moreover, Respondent
argues that even if the appellate court misapprehended the proposed witnesses’ testimony,
Petitioner has not provided a basis for overcoming the presumption that trial counsel’s decision
was not trial strategy and the evidence against Petitioner at trial was overwhelming.
The appellate court carefully considered the witnesses’ testimonies and acknowledged that
drug use “is proper on cross-examination as it reflects on the witness’s credibility and recall
ability.” (ECF No 7-3 at 6). However, “[gjeneral testimony that [Parker] used drugs does not
support a financial motive...” Id. Additionally, the witnesses still did not show that another person

19

1:19-CV-01248-MMM # 16

Page 20 of 22

injured Parker. Therefore, “trial counsel . . . reasonably determined that the witnesses would not
assist the defense” and there was no ineffective assistance of counsel in this matter. Id.
This Court finds that the appellate court’s decision was reasonable and not contrary to the
law. Even if Parker was a drug user during the time of the incident, or at the time of trial, trial
counsel’s decision to not call them does not rise to the level of ineffective assistance of counsel as
Petitioner has not shown that he would have been acquitted if they testified that Parker used drugs.
As previously noted, Parker’s alleged drug use would not show that another person other than
Petitioner inflicted Parker’s injuries. Accordingly, Petitioner has not shown prejudice based on
this alleged error. This Court concludes that Petitioner has not met the Strickland standard to
demonstrate ineffective assistance of trial counsel. Petitioner’s claim on this ground is denied.
D. Failure to Proffer Witnesses ’ Testimony
Finally, Petitioner argues that the appellate court’s conclusion that trial counsel was
relieved from making a full proffer of White’s and Tranchitella’s testimony, since it was “barred
by a motion in limine order, was “circular.” (ECF No. 1-1 at 41). Petitioner contends that he was
prejudiced by trial counsel’s failure to make a full proffer since it is necessary to ensure non-waiver
of the issue on appeal. Respondent states that at trial, counsel represented there were witnesses
who would testify that Parker had made false accusations of sexual assault at work, specifically
that one accusation occurred at Rosewood (where Tranchitella worked) and another was against
White. Additionally, Petitioner already argued on direct appeal that trial court erred in excluding
evidence about the alleged false accusations, and rather than finding waiver, the court denied
Petitioner’s claim on the merits. Therefore, Respondent states that trial counsel’s proffer was
sufficient and there was no prejudice to Petitioner.

20

l:19-cv-01248-MMM # 16 Page 21 of 22

The appellate court acknowledged that failure to make an offer of proof would waive the
issue on appeal, but concluded that “because the evidence was inadmissible and barred by a motion
in limine order, an offer of proof was unnecessary.” (ECF No. 7-3 at 7). This Court finds the ruling
did not result in a decision that was based on an unreasonable determination of the facts in the light
of the evidence. It was clear that information about Parker’s sexual activity during and after
Petitioner’s arrest was barred. (ECF No. 7-8 at 172).
Even if the appellate court was incorrect in its ruling, the Court finds that trial counsel
sufficiently preserved the claim for appellate review. During trial, counsel represented he had
witnesses that would testify that Parker made false accusations of sexual assault at work. (ECF
No. 7-7 at 12-14, 7-8 at 178-180). According to trial counsel, this testimony would hurt Parker’s
credibility and support the theory that she was falsely accusing him in order to pay her drug debts.
(ECF No. 7-7 at 12-14). The statements made on the record were used in Petitioner’s direct appeal
when he argued that the defense should have been able to present witnesses that would have
testified as to Parker’s alleged false accusations. (ECF No. 7-1 at 52-56). On direct appeal, the
court found these arguments had no merit. (ECF No. 7-1 at 15-16). Trial counsel sufficiently
preserved the claim for appeal as it was included in Petitioner’s direct appeal brief and the appellate
court analyzed the argument. Therefore, trial counsel was not deficient and Petitioner’s argument
on this matter is denied.
CERTIFICATE OF APPEALABILITY
When the Court enters a final order adverse to the petitioner, the Court must issue or deny
a certificate of appealability. See Rule 11(a), Rules Governing Section 2254 Cases in the United
States District Courts. A certificate of appealability may issue only where the petitioner makes a
“substantial showing of the denial of a constitutional right.” 28 U.S.C. § 2253(c)(2). A substantial

21

l:19-cv-01248-MMM # 16

Page 22 of 22

showing exists where “reasonable jurists could debate whether (or, for that matter, agree that) the
petition should have been resolved in a different manner or that the issues presented were adequate
to deserve encouragement to proceed further.” Peterson v. Douma, 751 F.3d 524, 528 (7th Cir.
2014) (quoting Slack v. McDaniel, 529 U.S. 473, 484 (2000)). The Court finds that no reasonable
jurist would debate whether Petitioner is entitled to habeas relief under 28 U.S.C. § 2254.
Therefore, the Court declines to issue a certificate of appealability.
CONCLUSION
For the reasons stated above, the Court DENIES Petitioner’s Petition for a Writ of
Habeas Corpus [1], The Com! further declines to certify any issue for appeal. This case is now
TERMINATED.
ENTERED this 7th day of February, 2020.
Is/ Michael M. Mihm
Michael M. Mihm
United States District Judge

22

Casey, Connie
From:
Sent:
To:
Subject:

ECF_Returns@ilcd.uscourts.gov
Friday, February 07, 2020 10:36 AM
ECF_Notices@ilcd.uscourts.gov
[External] Activity in Case l:19-cv-01248-MMM Bradley v. Kennedy Order on Motion for
Miscellaneous Relief

This is an automatic e-mail message generated by the CM/ECF system. Please DO NOT RESPOND to this e-mail
because the mail box is unattended.
*** NOTE TO PUBLIC ACCESS USERS**1" Judicial Conference of the United States policy permits attorneys of record and
parties in a case (including pro se litigants) to receive one free electronic copy of all documents filed electronically, if
receipt is required by law or directed by the filer. PACER access fees apply to all other users. To avoid later charges,
download a copy of each document during this first viewing. However, if the referenced document is a transcript, the
free copy and 30 page limit do not apply.
U.S. District Court
CENTRAL DISTRICT OF ILLINOIS

Notice of Electronic Filing
The following transaction was entered on 2/7/2020 at 10:36 AM CST and filed on 2/7/2020
Bradley v. Kennedy
Case Name:
Case Number:
l:19-cv-01248-MMM
Filer:
Document Number: No document attached
Docket Text:

TEXT ORDER denying [14] Motion for Relief of Judgment and Order. Petitioner seeks relief
under Fed. R. Civ. P. 60(b)(3) from the Court's 1/16/2020 Text Order denying Petitioner's [10]
Motion for Extension of Time and [12] Motion for Production of Exhibits. Under Rule 60(b)(3), a
court may relieve a party from an order for "fraud... misrepresentation, or misconduct by an
opposing party." Whether to grant a motion for relief "lies within the sound discretion of the
district court." Neuberg v. Michael Reese Hosp. Found., 123 F.3d 951, 955 (7th Cir. 1997). The
relief afforded by Rule 60 is considered extraordinary and is generally reserved for only
exceptional circumstances. Foster v. DeLuca, 545 F.3d 582, 584 (7th Cir. 2008). Petitioner
claims that because there was a difference in the cost of postage from Respondent's package
on December 2, 2019, versus the cost of postage from the January 16, 2020 package, that
Respondent must not have sent Petitioner a copy of the exhibits in the December package.
Petitioner also states that because he allegedly did not receive the exhibits in December, he
could not have filed his Reply. The Court finds that Petitioner has not shown an extraordinary
circumstance to justify relief from the 1/16/2020 Text Order. Petitioner previously stated that
he did not file a timely Reply by December 23, 2019, because he did not have an attorney and
did not find another inmate more knowledgeable in the law until December 26, 2019. Now he
claims the delay was because he did not receive the exhibits until January 23, 2020. Due to the
inconsistent statements, the Court finds that Petitioner has not filed his [14] Motion in good
faith. Moreover, the differences in postage does not show that Respondent committed fraud or
misconduct. The fact remains that Petitioner waited several weeks past the due date of his
i

Reply to file his previous Motions for [10] Extension of Time and [12] Production of Exhibits.
Therefore, Petitioner's [14] Motion for Relief of Judgment and Order is DENIED. Entered by
Judge Michael M. Mihm on 2/7/2020. (NRL, ilcd)

l:19-cv-01248-MMM Notice has been electronically mailed to:
Michael L Cebula MCebula@atg.state.il.us, EDusza@atg.state.il.us, jescobar@atg.state.il.us, TWhatleyConner@atg.state.il.us
l:19-cv-01248-MMM Notice has been delivered by other means to:
Clyde Edward Bradley
A70453
PONTIAC
CORRECTIONAL CENTER
Inmate Mail/Parcels
PO Box 99
Pontiac, IL 61764

m

Mm

2

